HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Towards the Medical Costs of Title IV-D Children in New Jersey That Were Paid Under the Medicaid Program,"(A-02-02-02004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Towards the Medical Costs of Title IV-D Children in
New Jersey That Were Paid Under the Medicaid Program," (A-02-02-02004)
November 14, 2003
Complete
Text of Report is available in PDF format (611 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We statistically sampled a population of 17,701 children in New Jersey who received Title IV-D services,
were on public assistance, and whose non-custodial parents (NCP) were making child support payments and were court ordered
to provide medical support.  We estimate that the NCPs of approximately 5,930 of these children did not or could not
provide the court ordered medical support, but could have contributed toward part or all of their childrens medical costs
paid by Medicaid from September 2001 through August  2002.  We estimate these NCPs could have contributed about
$2.5 million of the $11.8 million incurred by the State and Federal Governments to provide health care for these children.  We
recommended that New Jersey utilize the results of our review in determining whether existing child support guidelines
should be modified to require NCPs to contribute towards the Medicaid costs of their dependent children.